Record Press Inc., 229 West 36th Street, New York, N.Y. 10018 ·
Tel No.: (212) 619-4949 · Fax No. (212) 608-3141
STATE OF NEW YORK,

)

COUNTY OF NEW YORK

)

86360

AFFIDAVIT OF SERVICE

SS:

Edward Gutowski being duly sworn, deposes and says that deponent is not party to the action,
and is over 18 years of age.
That on the 1st day of March 2021 deponent served 3 copies of the within

BRIEF AMICI CURIAE OF THE AMERICAN CIVIL LIBERTIES UNION, INC.,
AMERICAN CIVIL LIBERTIES UNION FOUNDATION, INC., NAACP LEGAL DEFENSE
AND EDUCATIONAL FUND, INC., KNIGHT FIRST AMENDMENT INSTITUTE AT
COLUMBIA UNIVERSITY, HUMAN RIGHTS CAMPAIGN, AND PEN AMERICAN
CENTER, INC., IN SUPPORT OF PETITIONERS
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
John J. Bursch
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
916-210-6003
Aimee.F einberg@doj.ca.gov

Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com

requir~ z

I, Edward Gutowski, declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct, executed on March 1, 2021, pursuant to
Supreme Court Rule 29.5(c). All parties

Edward Gutowski

Sworn to me this
March 1, 2021
ALESSANDRA L. KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

Case Name: Americans for Prosperity v.
Becerra
Docket/Case Nos. 19-251 & 19-255

